’

'

Case: 19-2414

Document: 003113443261

Page: 1

Date Filed: 12/24/2019

ALD-023
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 19-2414

ANTHONY V. CAIBY,
Appellant
v.

TAMMY FERGUSON

On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. Civil Action No. 2-19-cv-00423)
District Judge: Honorable Wendy Beetlestone
..

Submitted for Possible Dismissal Pursuant to 28 U.S.C. § 1915(e)(2)(B) or
Summary Action Pursuant to Third Circuit LAR 27.4 and I.O.P. 10.6
October 24, 2019
Before: MCKEE, SHWARTZ and PHIPPS, Circuit Judges

JUDGMENT

This- cause came to be considered on the record from, the United States District
Court for the Eastern District of Pennsylvania and was submitted for possible dismissal
pursuant to 28 U.S.C. § 19L5(e)(2)(B) and for possible summary action pursuant to Third
Circuit LAR 27.4 and I.O.P. 10.6 on October 24, 2019. On consideration whereof, it is
now hereby
ORDERED and ADJUDGED by this Court that the judgment of the District Court
entered May 30, 2019, be and the same hereby is affirmed

-A
QxU

'Case: 19-2414

Document: 003113443261

Date Filed: 12/24/2019

Page: 2

All of the above in accordance with the opinion of tips Court.

ATTEST:
’ -•i

i

s/ Patricia S. Dodszuweit
Clerk
* •*» •

DATED: December 24, 2019

if-ml
Certified

* *
? *

y*a3id issued in lieu

Gf a fonrial -miOtclafce

^September 24 ,2020

!*]S .IV1'0

Teste:
Clerk, U.S. Court of Appeals for the Third Circuit

;

i-

;«

.

2

o

• ; Case: 19-2414

Document: 003113443258

Page: 1

Date Filed: 12/24/2019

NOT PRECEDENTIAL

ALD-023

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 19-2414
ANTHONY V. CABBY,
Appellant
v.
TAMMY FERGUSON
On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. Civil Action No. 2-19-cv-00423)
District Judge: Honorable Wendy Beetlestone
Submitted for Possible Dismissal Pursuant to 28 U.S.C. § 1915(e)(2)(B) or
Summary Action Pursuant to Third Circuit LAR 27.4 and I.O.P.10.6
October 24, 2019
Before: MCKEE, SHWARTZ and PHIPPS, Circuit Judges
(Opinion filed: December 24, 2019)
OPINION*

PER CURIAM

* This disposition is not an opinion of the full Court and pursuant to I.O.P. 5.7 does not
constitute binding precedent.

I

’’

j

Case: 19-2414

Document: 003113443258
r: r

Page: 2

Date Filed: 12/24/2019

•• ~ ~ —

Appellant Anthony Caiby, proceeding pro se and in forma pauperis (“IFP”),
appeals from the District Court’s order dismissing his civil action filed under 42 U.S.C.
§ 1983 as factually frivolous and for failure to state a claim. Because the appeal presents
no substantial question, we will, summarily affirm the judgment of the District Court. r
Caiby, a Pennsylvania prisoner, sought to file an IFP complaint against

-

Department of Corrections (“DOC”) Superintendent Tammy Ferguson and unidentified
DOC employee-defendants for alleged civil rights violations. The District Court
permitted Caiby to proceed IFP but dismissed his complaint with leave to amend, In his
amended complaint, Caiby alleged that he was the victim of a clandestine program to
inflict mental and physical torture called the “Mind Initiative,” implemented by
unconstitutional DOC policies and customs. See Am. Comp., ECF No. 16 at 12 (f 6) and
14 (If 15). Caiby described being “slashed continuously,” id at 4 (§ IV(B)), “cut to the
‘bum censors’ third cuticle down,” id, “lasered down to the cellular wall,” id. at 12 (f 4),
and implanted with “renal/neural impulse control,” id at 15 (^f 24). Caiby claimed that
DOC officials abducted him and otherwise retaliated against him for divulging the details
of the alleged program. See id at 15 (| 22) and 24 (f 83). Additionally, Caiby asserted
that he was assaulted numerous times by multiple cellmates. Id at 13 (f 10).

-:

The District Court screened Caiby’s amended complaint and dismissed it with
prejudice pursuant to 28 U.S.C. § 1915(e)(2)(B)(i) and (ii). In particular, the Court found
that many of Caiby’s claims were factually frivolous because they were not based in
reality. The District Court further ruled that Caiby otherwise failed to state a § 1983
2 .

: Case: 19-2414

Document: 003113443258

Page: 3

Date Filed: 12/24/2019

claim because he did not adequately allege that the defendants were personally involved
in the purported wrongdoing. Caiby timely appealed.1
We have jurisdiction pursuant to 28 U.S.C. § 1291, and exercise plenary review
over the District Court’s dismissal of Caiby’s amended complaint. See Allah v.
Seiverling, 229 F.3d220,223 (3d Cir. 2000); Romany. Jeffes. 904F.2d 192, 194 (3d
Cir. 1990). We construe his pro se complaint liberally, Haines v. Kemer. 404 U.S. 519,
520 (1972), and may affirm the District Court’s order if the appeal does not present a
substantial question. See 3d Cir. LAR 27.4 and I.O.P. 10.6.
We agree with the District Court that most of Caiby’s claims appear to be
“irrational” or “wholly incredible” statements, and thus are frivolous within the meaning
of § 1915(e)(2)(B)(i). See Denton v. Hernandez. 504 U.S. 25, 33 (1992). A claim is
' considered factually frivolous where “the facts alleged are ‘clearly baseless,’ ... a
category encompassing allegations that are ‘fanciful,’ ... ‘fantastic,’ ... and
‘delusional.’” hi at 32-33 (quoting Neitzke v. Williams, 490 U.S. 319, 327-28 (1989)).
For example, Caiby’s complaint includes numerous references to concepts like telepathic
commands and mind control.
To the extent Caiby’s allegations about having been cut by his cellmates can be
understood to assert a claim that the defendants failed to protect him from being assaulted
by other inmates, he failed to state a claim. See Bistrian v. Levi. 696 F.3d 352, 367 (3d

1 Caiby has filed a motion for appointment of counsel, as well as documents in which he
complains that he has been retaliated against for litigating the claims underlying this case.
3

Case: 19-2414

Document: 003113443258

Page: 4

Date Filed: 12/24/2019

_

Cir. 2012) (holding that a plaintiff must show that (1) he was “incarcerated under
conditions posing a substantial risk of serious harm”; (2) prison officials acted with,
“deliberate indifference” to his safety; and (3) the prison officials’ “deliberate
indifference caused him harm”)............

..............................

..................

We likewise agree with the District Court that Caiby failed to state that the
defendants were personally responsible for the alleged constitutional violations against
him, which is required to maintain a successful civil rights action under § 1983. See
Rode v. Dellarcinrete. 845 F.2d 1195,1207 (3rd Cir. 1988). For instance, Caiby did not
specify what Superintendent Ferguson did or did not do to give rise to a claim against
her; he named her as a defendant because “she has the power as the head administrative
[sic] to grant discovery.” Am. Comp., ECF No. 16 at 14 (^f 15). While Caiby’s
complaint referenced a DOC policy that “promulgated and enforced” the alleged civil
rights violations against him, he failed to actually identify the policy or connect it to
Ferguson’s actions. Id. at 6 (§ VH(C)). Nor did Caiby make any more specific
allegations regarding any Jane or John Doe defendants.
Finally, given that Caiby was granted leave to amend his initial complaint, and
that he failed to correct any of the complaint’s deficiencies in his amended complaint, the
District Court did not err when it declined to grant Caiby further leave to amend. See
Gravson v. Mawiew State Hoso.. 293 F.3d 103, 108 (3d Cir. 2002) (explaining that leave
to amend need not be granted if amendment would be futile).

' 4

; Case: 19-2414

Document: 003113443258

Page: 5

Date Filed: 12/24/2019

As this appeal presents no substantial question, we will affirm the District Court’s
order of dismissal. See 3d LAR 27.4 and I.O.P. 10.6. Caiby’s motion for appointment of
counsel is denied. See Tabron v. Grace, 6 F.3d 147, 155 (3d Cir. 1993). Also, to the
extent that he presents any requests for relief in the other documents he filed, those
requests are denied.

• 5

Case: 19-2414

Document: 49

Page: 1

Date Filed: 09/16/2020

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 19-2414

ANTHONY V. CAIBY,
Appellant
v.
TAMMY FERGUSON

(D.C. Civ. No. 0313-2:2-19-cv-00423)

SUR PETITION FOR REHEARING

Present: SMITH, Chief Judge. McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, and PHIPPS, Circuit Judges

The petition for rehearing filed by appellant in the above-entitled case having
been submitted to the judges who participated in the decision of this Court and to all the
other available circuit judges of the circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing, and a majority of the judges of the

ir

Case: 19-2414

Document: 49

Page: 2

Date Filed: 09/16/2020

>•

circuit in regular service not having voted for rehearing, the petition for rehearing by the
panel and the Court en banc, is denied.

BY THE COURT,
s/ Theodore McKee
Circuit Judge
Date: September 16, 2020
Lmr/cc: Anthony V. Caiby

/?

bb:

i
.

%

4
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA

ANTHONY VONE CAIBY,
Plaintiff,

FILED

V.

TAMELA FERGUSON,
Defendant

MAY - 2 2019

aVlL ACTION NO. 19-CV-0423

By.
ORDER

AND NOW, this

day of May, 2019, upon consideration of Plaintiff Anthony Vone
■

*

|

Caiby’s Motion to Proceed In Forma Pauperis (ECF No. 12), his Statement (ECF No; 13), and
his pro se Complaint (ECF No. 2), it is ORDERED that:
1. Leave to proceed in forma pauperis is GRANTED pursuant to 28 U.S.C. § 1915.
2. Anthony Vone Caiby, #HX-8170, shall pay the full filing fee of $350 in installments,
1

pursuant to 28 U.S.C. § 1915(b), regardless of the outcome of this case. The Court hereby
directs the Warden of SCI Phoenix or other appropriate official to assess an initial filing fee of
20% of the greater of (a) the average monthly deposits to Caiby’s inmate account; or (b) the
average monthly balance in Caiby’s inmate account for the six-month period immediately
preceding the filing of this case. The Warden or other appropriate official shall calculate, collect,
and forward the initial payment assessed pursuant to this Order to the Court with a reference to
!

the docket number for this case. In each succeeding month when the amount in Caiby’s inmate
i
trust fund account exceeds $10.00, the Warden or other appropriate official shall forviard
payments to the Clerk of Court equaling 20% of the preceding month’s income credited to
i

Caiby’s inmate account until the fees are paid. Each payment shall reference the docket number
for this case.
!

. v
3. The Clerk of Court is directed to SEND a copy of this Order to the Warden of
i

SCI Phoenix.
4. The Complaint is DEEMED filed.

5. Caiby’s Complaint is DISMISSED for the reasons in the Court’s Memora idum.
j

Caiby’s claims that are factually frivolous are DISMISSED with prejudice. Caiby’si claims that
are dismissed for failure to state a claim are DISMISSED without prejudice to amendment in
accordance with paragraph six (6) of this Order.
6.

j

Caiby is given thirty (30) days to file an amended complaint. Any amended

I
[
identifying them in the body of the second amended complaint, and shall state the basp for

complaint shall identify all defendants in the caption of the amended complaint in addition to

I

Caiby’s claims against each defendant. If Caiby does not know the identity of the individuals
|

responsible for violating his rights, he may refer to them as Jane or John Does; however, Caiby
must still describe how these individuals violated his rights.1 Upon the filing of an amended
complaint, the Clerk shall not make service until so ORDERED by the Court.
i

7.

The Clerk of Court shall send Caiby a blank copy of the Court’s form

!

complaint to be used by a prisoner filing a civil rights action bearing the above civil action
number. Caiby may use this form to file his amended complaint if he chooses to do so.
8.

If Caiby fails to comply with this Order, his case may be dismissed for failure
i

to prosecute without further notice.

!
1

I

I

WENDY BEETLESTONE, J.
i

Without the name of at least one individual or entity, however, the Court will be unable to
direct service of any second amended complaint that Caiby may file.
j
i

i
i

•> —~r

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
ANTHONY VONE CAIBY,
Plaintiff,

FI LED CIVIL AcnoN NO- 19-CV-0423

v.
TAMELA FERGUSON,
Defendant

BEETLESTONE, J.

MAY - i 2019

i

KAIEBARKMAN.OBA
sy. _____ pep. Clerk
MEMORANDUM
MAY2 ,2019

Plaintiff Anthony Vone Caiby, a prisoner incarcerated at SCI Phoenix who is j
I

representing himself, filed this civil action pursuant to 42 U.S.C. § 1983 against Tamila
Ferguson, the Superintendent of SCI Phoneix, based on the conditions at SCI Graterfcrd and SCI
Phoenix. He seeks leave to proceed in forma pauperis. The Court will grant Caiby leiave to
proceed in forma pauperis and dismiss his Complaint with leave to file an amended complaint.
I.

FACTS

The factual basis for Caiby’s claims is not entirely clear. He alleges that:
In February 14-28,2018 and then the whole time incommunicado inmitation [sic]
phone calls, nonpayment for mind-initiative, retaliation, being placed under re ial
neural impulse control, and continuously cut with razors, bum sensor third cuticle
down etc. to make me capitulate and stop fighting.
j
j
(Compl. at 6.)1 He adds that he “was cut by multiple cell mates [his] mail/legal mail, sent to the
POV [or POC], and kidnapped, not compensated.” (Id. at 7.) Caiby describes the most serious
“cut” as having occurred on September 29, 2017, “on the hand, right hand, under the : eft eye,
also cut on the bum sensor third cuticle down multiple times.” (Id.) Caiby also clairr s to have

1 The Court adopts the pagination assigned to the Complaint by the CM-ECF docketir g system.

^5

------ (v«-

C*

*

been “kidnapped from SCI Graterford, on Feb 16, 2018, kept in POC, [and] lasered toi the
cellular wall.” (Id) He alleges that he has “new scars from last scans 54 new cuts in ;otal,
covered up by officials in charge.” (Id)
Caiby claims to have suffered physical injuries and to have been “shocked via voice
command technology.” (Id) He seeks unspecified injunctive relief and $5 million in damages.
Caiby attached to his Complaint a letter addressed to the state court inquiring about hfe post­
conviction proceedings. The letter states that he is “still under renal/neural impulse control,”
which has impacted his ability to pursue his case, and that he has been assaulted during his
incarceration. (Id at 14.) Caiby also attached pictures to his Complaint; it is not clea- how those
1

pictures are relevant to his claims.
IL

STANDARD OF REVIEW

The Court will grant Caiby leave to proceed in forma pauperis because he has
represented that he lacks the ability to pay the fees to commence this civil action.2 Accordingly,
Caiby’s Complaint is subject to 28 U.S.C. § 1915(e)(2)(B)(i) and (ii), which requires ihe Court to
dismiss the Complaint if it frivolous or fails to state a claim. A complaint is frivolous if it “lacks
an arguable basis either in law or in fact.” Neitzke v. Williams, 490 U.S. 319,325 (19 39). It is
legally baseless if “based on an indisputably meritless legal theory,” Deutsch v. Unite i States, 67
F.3d 1080,1085 (3d Cir. 1995), and factually baseless “when the facts alleged rise to he level of
the irrational or the wholly incredible.” Denton v. Hernandez, 504 U.S. 25, 33 (1992).

2 However, as Caiby is incarcerated, he must pay the filing fee in installments in accordance with
the Prison Litigation Reform Act. See 28 U.S.C. § 1915(b). The Court will accept Oiby’s
submissions as substantial compliance with § 1915(a) given the documentation he provided
reflecting that he has had difficulty obtaining his account statement.
2

i

&

To survive dismissal, the complaint must contain “sufficient factual matter, ac ;epted as
true, to state a claim to relief that is plausible on its face.” Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009) (quotations omitted). “[M]ere conclusory statements[] do not suffice.” Id. Ai Caiby is
proceeding pro se, the Court construes his allegations liberally. Higgs v. A tty Gen., q55 F.3d
333,339 (3d Cir. 2011).
III.

DISCUSSION

Initially, several of Caiby’s allegations rise to the level of factually frivolous. -At points
in his pleading, he suggests that he is under “renal/neural impulse control” or otherwise being
controlled by “voice command technology.” He also alludes to a “mind-initiative.” 1 'hese
allegations rise to the level of factually frivolous and cannot support a claim on which Caiby can
proceed.3
To the extent Caiby’s allegations are not factually frivolous, he has not pled a [plausible
I
i

basis for a claim. “To state a claim under § 1983, a plaintiff must allege the violation! of a right
i

secured by the Constitution and laws of the United States, and must show that the alleged
deprivation was committed by a person acting under color of state law.” West v. Atkins, 487 U.S.
42,48 (1988). “A defendant in a civil rights action must have personal involvement ip the
alleged wrongs.” Rode v. Dellarciprete, 845 F.2d 1195,1207 (3d Cir. 1988). “Because
vicarious liability is inapplicable to ... § 1983 suits, a plaintiff must plead that each
Government-official defendant, through the official’s own individual actions, has vio atedthe
Constitution.” Iqbal, 556 U.S. at 676.

!

3 Caiby’s allegation in a statement provided to the Court that “[t]hey are also on my h£ad to use
military paralane, this falls under the ‘Military Secrets Doctrine’ jamming me to the pjoint that 1
cannot read, concentrate etc” reinforces this interpretation. (ECF No. 13 at 1.)
i

3

zf
There are “two general ways in which a supervisor-defendant may be liable fojr
|

unconstitutional acts undertaken by subordinates.” Barkes v. First Corr. Med., Inc. , 7l66 F.3d

i

307, 316 (3d Cir. 2014), reversed on other grounds by Taylor v. Barkes, 135 S. Ct. 2042 (2015).
First, a supervisor may be liable if he or she “‘with deliberate indifference to the consequences,
i

established and maintained a policy, practice or custom which directly caused [the] constitutional
i
harm.” Id. (quoting A.M. ex rel. J.M.K. v. Luzerne Cty. Juvenile Det. Ctr., 372 F.3d 5|2, 586 (3d
1

Cir. 2004) (alteration in original)). “Second, a supervisor may be personally liable uncjler § 1983
if he or she participated in violating the plaintiffs rights, directed others to violate thepi, or, as
!|

the person in charge, had knowledge of and acquiesced in the subordinate’s unconstitutional
i

conduct” Id. “[T]he level of intent necessary to establish supervisory liability will v$ry with the
underlying constitutional tort alleged.” Id. at 319.

i

Here, it is possible that Caiby could allege a nonfrivolous basis for a claim ba^ed on
\

repeated assaults from other inmates and circumstances related to his mail, but the Complaint
does not allege a plausible claim as pled due to the absence of enough facts showing an
entitlement to relief. Caiby also has not alleged any plausible basis for concluding thqt Ferguson
1

l

violated his rights in connection with the conditions of his confinement While it would be
appropriate for Caiby to identify defendants as “John Doe” or “Jane Doe” if he does riot know
their names1 he is still obligated to describe those individuals with some particularity and explain
i

how each individual he seeks to proceed against was personally involved in the violation of his
'•

constitutional rights, whether due to the official’s own misconduct or the official’s deliberate
indifference to known deficiencies in a policy or procedure that violated his rights. lit sum,
Caiby has not pled a plausible basis for a constitutional violation or a plausible basis fjor
i

!
1
1

4

i

i

I
I
I

!

I

£6

-----____
fi

«*•

I

Ferguson’s involvement in any of the events that appear to form the basis for his challenges to
his conditions of confinement.
l

IV.

CONCLUSION

For the foregoing reasons, Caiby’s Complaint is dismissed as factually frivolo]us and for

.' . .

i

failure to state a claim. However, as it is possible that Caiby could allege a plausible basis for a
!

claim challenging the conditions of his confinement, he will be given an opportunity ijo file an
amended complaint. See Grayson v. Mayview StateHosp., 293 F.3d 103,114 (3d Ciii 2002).
An appropriate Order follows.
/

i

BY THE COURT:
t

ft

i

WENDY BEETLESTONE, J.

i

1

I

1

;

I

5
r

:

I

Case: 19-2414

Document: 45

Page: 1

Date Filed: 01/14/2020

UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT

No. 19-2414

Caiby v. Ferguson

To:

Clerk

1)

Motion by Appellant for Extension of Time to File Petition for Rehearing

No action will be taken on the foregoing motion as it is deemed unnecessary.
Appellant’s petition for rehearing was due to be filed on or before January 7, 2020. It
appears that Appellant’s petition was mailed by prison officials on or before January 6,
2020, and the petition was received by the Clerk on January 10, 2020. Appellant’s
petition is, therefore, considered timely.
Upon review of the petition for rehearing, however, it appears to be noncompliant.
Pursuant to 3r<* Cir. L.A.R. 35.2(a), any additional documents attached to the petition
must be accompanied by a motion for leave to file the exhibits attached to the petition for
rehearing. Within fourteen (14) days of the date of this Order, Appellant must file a
motion for leave to file the exhibits attached to the petition for rehearing. No action will
be taken on the petition until these deficiencies are corrected.
S'—J

For the Court

;?

FS'-'*

U -Vl/r"
-

s/ Patricia S. Dodszuweit
Clerk

Dated: January 14, 2020
PDB/cc: Anthony V. Caiby

lij'is'j

^ Li
"...........

5

• I

■ Case: 19-2414

Document: 003113443261

Page: 1

Date Filed: 12/24/2019

ALD-023
UNITED STATES COURT OF APPEALS
FOR TEE THIRD CIRCUIT
No. 19-2414
ANTHONY V. CAIBY,
Appellant
Y.

TAMMY FERGUSON
On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. Civil Action No. 2-19-CV-00423)
District Judge: Honorable Wendy Beetlestone
Submitted for Possible Dismissal Pursuant to 28 U.S.C. § 1915(e)(2)(B) or
Summary Action Pursuant to Third Circuit LAR 27.4 and I.O.P. 10.6
October 24, 2019
Before: MCKEE, SHWARTZ and PHIPPS, Circuit Judges
JUDGMENT
This cause came to be considered on the record from the United States District
Court for the Eastern District of Pennsylvania and was submitted for possible dismissal
pursuant to 28 U.S.C. § 1915(e)(2)(B) and for possible summary action pursuant to Third
Circuit LAR 27.4 and I.O.P. 10.6 on October 24, 2019. On consideration whereof, it is
now hereby
ORDERED and ADJUDGED by this Court that the judgment of the District Court
entered May 30, 2019, be and the same hereby is affirmed.

; Case: 19-2414

Document: 003113443261

Page: 2

Date Filed: 12/24/2019

All of the above in accordance with the opinion of this Court.

ATTEST:

s/ Patricia S. Dodszuweit
Clerk
DATED: December 24,2019

2

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
ANTHONY VONE CAIBY,
Plaintiff,
v.

CIVIL ACTION NO. 19-CV-0423

TAMELA FERGUSON,
Defendant.
ORDER
AND NOW, thisi^^day of May, 2019, upon consideration of Plaintiff Anthony Vone
Caiby’s Amended Complaint (ECF No. 16), it is ORDERED that:
1. The Amended Complaint is DISMISSED with prejudice pursuant to 28 U.S.C. §
1915(e)(2)(B)(i) and (ii) for the reasons stated in the Court’s Memorandum.
2. The Clerk of Court shall CLOSE this cas&T
BY THE ( OURT:

U(

WENDY BEETLESTONE, J.

- -,

\

11

* •,

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
ANTHONY VONE CAIBY,
Plaintiff,
CIVIL ACTION NO. 19-CV-0423

v.
TAMELA FERGUSON,
Defendant.

MEMORANDUM
MAY-^^2019
BEETLESTONE, J.
Plaintiff Anthony Vone Caiby, a prisoner incarcerated at SCI Phoenix who is
representing himself, filed this civil action pursuant to 42 U.S.C. § 1983 against Tammy
Ferguson, the Superintendent of SCI Phoneix, based on the conditions at SCI Graterford and SCI
Phoenix. His Amended Complaint is currently before the Court. For the following reasons, the
Court will dismiss Caiby’s Amended Complaint with prejudice as frivolous and for failure to
state a claim.
I.

FACTS AND PROCEDURAL HISTORY

In his initial Complaint, Caiby alleged that:
In February 14-28,2018 and then the whole time incommunicado inmitation [sic]
phone calls, nonpayment for mind-initiative, retaliation, being placed under renal
neural impulse control, and continuously cut with razors, bum sensor third cuticle
down etc. to make me capitulate and stop fighting.
(Compl. at 6.)1 He added that he “was cut by multiple cell mates [his] mail/legal mail, sent to the
POV [or POC], and kidnapped, not compensated.” (Id at 7.) Caiby described the most serious
“cut” as having occurred on September 29,2017, “on the hand, right hand, under the left eye,

1 The Court adopts the pagination assigned to Caiby’s pleadings by the CM-ECF docketing
system.

Gz

i

any John Doe Defendants if he sought to do so. Caiby was given leave to file an amended
complaint, which he did.2 (See ECF Nos. 15 & 16.)
Caiby names Tammy Ferguson as a Defendant in the caption of his Amended Complaint
and also lists a Jane/John Doe Defendant on the second page of his Amended Complaint Caiby
again alleges that he was “slashed continuously, and cut to the ‘bum censors’ third cuticle down
by agents of the state solicited by people acting under color of state law.” (Am. Compl. at 4.)
Caiby alleges that his injuries stemmed from an “unconstitutional policy/custom,” but he does
not clearly explain the specific policy or custom in question. (Id at 5.) Caiby alleges that when
he returned to SCI Phoenix from Monroe County on January 27,2019, he told a Lieutenant that
he was “slashed a bunch of times,” at which point he was taken to administrative segregation for
ten days, after which he saw the Program Review Committee. (Id at 12.)
Caiby indicates that he told prison officials to call the state police to report •what had r
happened to him. It appears he was sent to a psychiatric observation cell and released two days
later after being assessed “by a psych panel whom I also told I was cut.” (Id.) Caiby alleges he
does not “know the identity of the assailants who solicited the hits/slashings most of the with dull
point instruments bum censor third cuticle down. This is a secret kind of torture usen [sic] by
the military, so it falls under the ‘Military Secrets Doctrine.’” (Id at 12-13.) He also suggests
that information—apparently about his injuries—was “gleaned by the unknowra conspirators
after an investigation into [his] past by Del William Irish NYPD PSA2 June 4,1992 Brookdale
Hospital.” (Id. at 13.) It appears Caiby sought treatment for his injuries but that at sick call he

2 Caiby filed two copies of his Complaint prior to the Court’s first screening, which were in
essence identical, and which the Court essentially treated as one Complaint. (See ECF Nos. 2 &
7.) Accordingly, the Court will treat the pleading before it as an Amended Complaint rather than
a second amended complaint
3

------- c»

r »

£> J
proceeding pro se, the Court construes his allegations liberally. Higgs v. Att’y Gen., 655 F.3d
333, 339 (3d Cir.2011).
Moreover, Rule 8(a) of the Federal Rules of Civil Procedure requires a complaint to
contain “a short a plain statement of the claim showing that the pleader is entitled to relief.” A
district court may sua sponte dismiss a complaint that does not comply with Rule 8 if “the
complaint is so confused, ambiguous, vague, or otherwise unintelligible that its true substance, if
any, is well disguised” Simmons v. Abruzzo, 49 F.3d 83,86 (2d Cir. 1995) (quotations omitted).
This Court has noted that Rule 8 “requires that pleadings provide enough information to put a
' ’ defendant on sufficient notice to prepare their defense and also ensure that the Court is
sufficiently informed to determine the issue.” Fabian v. St. Mary ’s Med. Or., No. Civ. A. 16-.
4741,2017 WL 3494219, at *3 (E.D. Pa. Aug. 11, 2017) (quotations omitted).
m.

DISCUSSION

Caiby’s Amended Complaint contains the same, defects as his initial Complaint. Many of
his allegations rise to the level of factually frivolous. His allegations that he is under
“renal/neural impulse control,” subject to a “mind-initiative,” and being tortured in connection
with a secret military program do not appear to be grounded in reality. These allegations, which
comprise the majority of Caiby’s Amended Complaint, rise to the level of factually frivolous and
cannot support a claim on which Caiby can proceed.
To the extent Caiby’s allegations are not factually frivolous, he has not pled a plausible
basis for a claim. “To state a claim under § 1983, a plaintiff must allege die violation of a right
secured by the Constitution and laws of the United States, and must show that the alleged
deprivation was committed by a person acting under color of state law.” West v. Atkins, 487 U.S.
42,48 (1988). “A defendant in a civil rights action must have personal involvement in the

5

)

i

r

<')

r,
4

X

IV.

CONCLUSION

For the foregoing reasons, Caiby’s Amended Complaint is dismissed as factually
frivolous and for failure to state a claim. Caiby was previously notified of the defects in his
claims and provided an opportunity to amend but was unable to do so. As the Amended
Complaint contains the same defects as the initial Complaint, the Court concludes that further
attempts at amendment would be futile and will dismiss this case with prejudice. An appropriate
Order follows.
BY THE dOURT:

L

WENDY BEETLESTONE, J.

;

7

!? *

V

IN THE UNITED STATES SUPREME COURT
CERTIFICATE OF COMPLIANCE
No. 07ANTHONY VONE CAIBY
V.

TAMMY FERGUSON ET AL.;
As required by the Supreme Court Rule 33.1(h) I certify that the petition
for a writ of certirari contains
Supreme Court Rule 33.1 (d).

words, excluding the parts of the petition that are exempted by

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

/M

2020

a

1

RECEIVED
I

JAN 2 2 2021
s u p fTemeTcouRr~ uFs<

v.

IN THE UNITED STATES SUPREME COURT

tfM ]y

Case No. 19-2414

Anthony Vone Caiby
V.
Tammy Ferguson

I, am an Inmate confined in an institution. Today, (jj^ /

/*

2020, I

am depositing this document a Writ of Certorari in this case in this institutions
mail box. First class postage being pre paid. I declare under penalty of peijury that
the foregoing is true and correct to the best of my knowledge information and
belief. Under the penalties provided for by 28 U.S.C. 1746 18 U.S.C. 1621
Dated: (fAn /V

,2020

Anthony Vone Caiby
Pro Se

27
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT

No. 18-2876

Caiby v. Link

To:

Clerk

1)

Motion by Appellant for Appointment of Counsel

No action will be taken on the foregoing submission as the above-docketed appeal
was closed by the Court’s Order dated July 9, 2019. A copy of the Court’s Order is
enclosed.
It is noted that the time to file a petition for rehearing has passed and the mandate
issued on July 31, 2019. No further submissions will be considered in this case.

For the Court,
s/ Patricia S. Dodszuweit
Clerk

Dated: December 5, 2019
Tmm/cc: Anthony V. Caiby

Additional material
from this filing is
available in the
Clerk's Office.

